HHS/OIG, Audit - "Review of Medicaid Credit Balances at Baystate Mary Lane Hospital for the Period Ending June 30, 2006," (A-01-06-00010)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Credit
Balances at Baystate Mary Lane Hospital for the Period Ending June 30, 2006," (A-01-06-00010)
May 7, 2007
Complete Text of Report is available in PDF format (372 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We identified 122 overpayments greater than 60 days old that Baystate Mary Lane Hospital (the Hospital) should have returned to the Medicaid program. Specifically, the Hospital did not promptly return Medicaid overpayments of $15,738 ($7,869 Federal share) to the Medicaid program in accordance with State Medicaid requirements. These errors occurred because the Hospital did not follow its internal procedures for processing and returning Medicaid overpayments. We recommended that the Hospital return to the Massachusetts Medicaid program overpayments totaling $15,738 ($7,869 Federal share) and continue efforts to identify and return all overpayments to Medicaid in accordance with State requirements. The Hospital agreed substantially with our observations and findings.